Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




UPDATE: EXCESSIVE MEDICARE
   REIMBURSEMENT FOR
        ALBUTEROL




                    Inspector General

                     January 2004
                    OEI-03-03-00510
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
State Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                                    S U M M A R Y 




                              OBJECTIVE
                              To update data provided in a 2002 report comparing Medicare
                              reimbursement for albuterol to prices available to Medicaid, the
                              supplier community, and the Department of Veterans Affairs
                              (VA).


                              BACKGROUND
                              Albuterol is an inhalation drug commonly used with a nebulizer
                              to treat patients suffering from asthma or emphysema. Prior to
                              2004, Medicare’s reimbursement methodology for albuterol and
                              other prescription drugs was set forth in section 1842(o) of the
                              Social Security Act, as amended by section 4556 of the Balanced
                              Budget Act of 1997. At the time, reimbursement for a covered
                              drug was set at 95 percent of the drug’s average wholesale price
                              (AWP). Recently, the Medicare Prescription Drug,
                              Improvement, and Modernization Act of 2003 lowered
                              reimbursement for many Part B drugs, including albuterol. In
                              2004, Medicare reimbursement for albuterol will be 80 percent
                              of AWP.
                              Medicare beneficiaries are responsible for paying a 20 percent
                              coinsurance payment for covered drugs. In calendar year (CY)
                              2002, Medicare and its beneficiaries paid $412 million for the
                              unit-dose solution form of albuterol, up from $296 million in CY
                              2000.
                              Albuterol is usually provided to Medicare beneficiaries by
                              pharmacies, which then submit claims for reimbursement to
                              Medicare. Medicaid beneficiaries also obtain albuterol through
                              pharmacies. Pharmacies can purchase drug products through
                              group purchasing organizations (GPOs), wholesalers, and
                              directly from manufacturers. Unlike Medicare and Medicaid,
                              VA provides veterans with drugs purchased directly from
                              manufacturers or wholesalers. There are several purchase
                              options available to VA, including the Federal Supply Schedule,
                              blanket purchase agreements, and VA national contracts.
                              We obtained Medicare’s CY 2003 reimbursement amount for
                              albuterol. For comparison, we: (1) obtained Medicaid’s 2003
                              reimbursement amount for albuterol by reviewing the Federal
                              Upper Limit list, (2) estimated 2003 pharmacy acquisition costs

O E I - 03 - 03 - 0 0 5 1 0      UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   i
E   X   E      C      U       T       I   V   E     S      U      M       M      A      R       Y


                                              for albuterol by obtaining pricing information from a national
                                              wholesaler/distributor and a GPO, and (3) determined the VA’s
                                              2003 payment amount for albuterol by accessing pricing data
                                              available on its website. We also obtained manufacturer-
                                              reported wholesale acquisition costs (WACs) from the January
                                              2003 edition of the Drug Topics Red Book. We calculated
                                              potential savings by multiplying Medicare’s 2002 total payments
                                              for albuterol by the percentage difference between the Medicare
                                              reimbursement amount and the Medicaid reimbursement
                                              amount.
                                              The exact savings estimates presented in this report are for
                                              2002. Because the 2004 reimbursement amount for albuterol
                                              was lowered to 80 percent of AWP from 95 percent of AWP, the
                                              savings that Medicare would achieve by paying the Medicaid
                                              Federal Upper Limit Amount would now be lower. However, the
                                              difference in price between Medicare and Medicaid would still be
                                              large, and significant savings would still result if Medicare were
                                              able to reimburse albuterol at the Federal Upper Limit amount.


                                              FINDINGS
                                              Medicare continues to pay more for albuterol than other
                                              payors, costing the program and its beneficiaries millions of
                                              dollars a year. In 2003, the Centers for Medicare & Medicaid
                                              Services (CMS) set the Medicaid Federal Upper Limit amount
                                              for albuterol at $0.17 per milligram (mg), compared to $0.47 per
                                              mg for Medicare. If Medicare could reimburse for albuterol at
                                              the Federal Upper Limit amount, the program would have saved
                                              $263 million in 2002. Approximately $53 million of the savings
                                              would have resulted from reduced coinsurance payments.
                                              Data collected from a drug wholesaler/distributor and a GPO
                                              showed that pharmacies were able to purchase albuterol for
                                              substantially less than the Medicare reimbursement amount. In
                                              spring 2003, the median price of albuterol at both the
                                              wholesaler/distributor and GPO was $0.06 per mg. Medicare’s
                                              reimbursement amount of $0.47 per mg was nearly eight times
                                              more for the same amount of the drug. We did not collect data
                                              from pharmacies regarding any additional costs related to
                                              providing albuterol to Medicare beneficiaries.




        O E I - 03 - 03 - 0 0 5 1 0               UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   ii
E   X   E      C      U       T       I   V   E    S      U       M      M       A      R       Y


                                              Furthermore, manufacturer-reported WACs published in the
                                              Red Book also showed that pharmacies were able to purchase
                                              albuterol for prices substantially below the Medicare
                                              reimbursement amount. In January 2003, the median WAC
                                              reported in the Red Book was $0.08 per mg.
                                              If Medicare were able to use prices available to the supplier
                                              community as a basis for albuterol reimbursement, the program
                                              and its beneficiaries would save millions of dollars a year.
                                              Since our 2002 report, which was based on 2001 data, the price
                                              at which albuterol was available to the supplier community had
                                              decreased, while the Medicare reimbursement amount had
                                              remained the same. In 2001, we calculated that the median
                                              price of albuterol through wholesaler/distributors and GPOs was
                                              $0.08 per mg, 33 percent higher than the 2003 price of $0.06 per
                                              mg. In addition, manufacturer-reported WACs had also
                                              decreased, from a median of $0.11 per mg in 2001 to $0.08 in
                                              2003.
                                              The median Federal Supply Schedule price available to VA for
                                              generic albuterol was $0.05 per mg. In comparison, Medicare
                                              reimbursed over 9 times more ($0.47 per mg) for the same
                                              amount of the drug in 2003. However, it should be noted that,
                                              unlike Medicare, VA purchases drugs for its health care system
                                              directly from manufacturers or wholesalers, rather than
                                              reimbursing pharmacies for the drug. Both the VA Federal
                                              Supply Schedule price and the Medicare reimbursement amount
                                              for albuterol have remained constant since our previous report.


                                              CONCLUSION
                                              Despite numerous attempts by CMS to lower reimbursement
                                              amounts for prescription drugs, Medicare still pays a high
                                              premium for albuterol. This report is part of a series of reports
                                              on albuterol that have consistently found that the published
                                              average wholesale prices, which, as prescribed by Federal law,
                                              form the basis of Medicare drug reimbursement, bear little or no
                                              resemblance to actual wholesale prices that are available to
                                              pharmacies and large Government purchasers.
                                              Because of Medicare’s reliance on published average wholesale
                                              prices, the program’s reimbursement remains constant, despite
                                              the fact that other purchasers pay significantly less for albuterol

        O E I - 03 - 03 - 0 0 5 1 0               UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   iii
E   X       E      C       U      T   I   V   E         S      U      M       M      A       R      Y


                                              than they did several years ago. In addition, Medicare’s total
                                              reimbursement for albuterol continues to increase substantially
                                              each year. Consequently, the Medicare program loses
                                              progressively more money every year.
                                              We understand that, unlike most drugs covered by Medicare,
                                              albuterol is usually provided by pharmacies rather than
                                              administered by physicians. These pharmacies obviously need
                                              to make a profit from the products they supply, yet the spread
                                              between what Medicare reimburses for albuterol and the price
                                              at which suppliers are able to purchase the drug is significant.
                                              Furthermore, we recognize that the VA acts as a purchaser of
                                              drugs, while Medicare reimburses pharmacies for the product.
                                              However, the fact that one Government agency is able to
                                              purchase a drug for one-ninth of Medicare’s reimbursement
                                              amount is disconcerting.
                                              Congress has recently passed the Medicare Prescription Drug,
                                              Improvement, and Modernization Act of 2003 (Act). This Act
                                              provides for numerous changes in Medicare’s reimbursement
                                              methodology for drugs covered under Part B, including
                                              albuterol. Based on this new Act, Medicare will reimburse
                                              albuterol at 80 percent of AWP in 2004. We hope that the data
                                              presented in this report is helpful to CMS in determining an
                                              appropriate payment amount for the drug beyond 2004.




        O E I - 03 - 03 - 0 0 5 1 0               UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   iv
T A B L E                            O F                C O N T E N T S 




                     E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i





                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                     FINDINGS


                          Medicare continues to pay more than other payors for albuterol.................... 7




                     C O N C L U S I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10





                     A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11





O E I - 03 - 03 - 0 0 5 1 0                UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   v

I N T R O D U C T I O N 





                              OBJECTIVE
                              To update data provided in a 2002 report comparing Medicare
                              reimbursement for albuterol to prices available to Medicaid, the
                              supplier community, and the Department of Veterans Affairs
                              (VA).


                              BACKGROUND
                              Medicare Coverage of Albuterol
                              Currently, Medicare Part B does not pay for over-the-counter or
                              most outpatient prescription drugs. However, Medicare Part B
                              will cover drugs that are necessary for the effective use of
                              durable medical equipment. One such product, albuterol, is an
                              inhalation solution commonly used with a nebulizer to treat
                              patients suffering from asthma or emphysema. Albuterol is
                              typically provided to Medicare beneficiaries by pharmacies.
                              Medicare Reimbursement of Albuterol
                              The Centers for Medicare & Medicaid Services (CMS) contracts
                              with four companies, known as durable medical equipment
                              regional carriers (DMERCs), to process and reimburse medical
                              equipment and supply claims, including albuterol. Each
                              DMERC is responsible for determining the reimbursement
                              amount for albuterol in their respective region, based on
                              Medicare’s reimbursement methodology.
                              Prior to 2004, Medicare=s reimbursement methodology for
                              albuterol and other prescription drugs was set forth in section
                              1842(o) of the Social Security Act, as amended by section 4556 of
                              the Balanced Budget Act of 1997. At the time, the Social
                              Security Act stated that reimbursement for covered drugs was to
                              be set at 95 percent of the drug’s average wholesale price (AWP).
                              CMS directed carriers to obtain AWP data from the Drug Topics
                              Red Book or similar pricing publications used by the
                              pharmaceutical industry. In 2003, each DMERC reimbursed
                              $0.47 per milligram (mg) for the unit-dose solution form of
                              albuterol.
                              Recently, the Medicare Prescription Drug, Improvement, and
                              Modernization Act of 2003 (Act) lowered reimbursement for
                              many Part B drugs in 2004 and beyond by revising section

O E I - 03 - 03 - 0 0 5 1 0      UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   1
I   N   T    R       O      D         U   C   T   I     O      N


                                              1842(o) of the Social Security Act. According to the new Act, the
                                              payment for a drug contained in the table, “Medicare Part B
                                              Drugs in Most Recent GAO and OIG Studies” published in the
                                              Federal Register (68 FR 50445) will be the percentage of the
                                              AWP indicated in the table. If the percentage in the table is less
                                              than 80 percent, then the percentage applied to reimbursement
                                              will be 80 percent. Based on the data presented in this table, in
                                              2004, Medicare reimbursement for albuterol will be 80 percent
                                              of AWP.
                                              Medicare paid $412 million for the unit-dose solution form of
                                              albuterol in calendar year (CY) 2002, up from $296 million in
                                              CY 2000. This total represents 5 percent of the $8.2 billion
                                              Medicare paid for all prescription drugs in 2002. Medicare
                                              payments include both the 80 percent that Medicare reimburses,
                                              and the 20 percent coinsurance payment for which beneficiaries
                                              are responsible.
                                              CMS Use of Office of Inspector General (OIG) Data
                                              In a proposed rule published in the Federal Register on August
                                              20, 2003, CMS states, “If the OIG performs a new market
                                              analysis, we expect to incorporate this information into the
                                              Medicare payment limits…Initially, we would use the market
                                              analyses available to us from GAO and OIG studies to transition
                                              widely available market prices into the Medicare payments.”
                                              Because of the passage of the Medicare Prescription Drug,
                                              Improvement, and Modernization Act of 2003, the proposed rule
                                              did not take effect. However, according to this Act, new pricing
                                              data may be useful for setting Medicare reimbursement
                                              amounts in the future.

                                              Recent Attempts to Lower Medicare Reimbursement
                                              Inherent Reasonableness. Section 4316 of the Balanced Budget
                                              Act of 1997 allows CMS to diverge from Medicare=s statutorily-
                                              defined payment method if the method results in payment
                                              amounts that are not inherently reasonable. In late 1998, CMS
                                              attempted to use this authority to lower what it considered
                                              excessive reimbursement for several items. One of these items
                                              was albuterol, which was targeted for an 11 percent fee
                                              reduction. However, the lower prices were never implemented,
                                              as Congress suspended the use of CMS’s inherent
                                              reasonableness authority through a provision of the Medicare,
                                              Medicaid, and SCHIP Balanced Budget Refinement Act of 1999.


        O E I - 03 - 03 - 0 0 5 1 0                   UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   2
I   N     T      R       O      D     U   C    T   I     O      N


                                              This provision required the General Accounting Office (GAO) to
                                              complete a study on the potential effects of using inherent
                                              reasonableness measures before CMS could invoke the
                                              authority. The GAO report, issued in July 2000, found that
                                              inherent reasonableness reductions for some items were
                                              justified. However, GAO questioned the methodology that the
                                              carriers used in their collection of pricing data for albuterol.
                                              On February 11, 2003, a new interim final rule for the
                                              application of inherent reasonableness went into effect.
                                              According to the regulation, payment amounts may be
                                              considered unreasonable based on a number of criteria,
                                              including: (1) payment amounts are grossly excessive when
                                              compared to other purchasers in the same locality, or (2)
                                              payment amounts are grossly excessive when compared to
                                              acquisition costs. According to the regulation, a payment
                                              amount is considered grossly excessive if a reduction of at least
                                              15 percent is required to produce a realistic and equitable
                                              reimbursement amount.
                                              Competitive Bidding. CMS included albuterol and several other
                                              inhalation drugs in a competitive bidding project in the San
                                              Antonio, Texas area that sought to use market forces to set
                                              accurate prices for durable medical equipment and related
                                              supplies. In November 2000, CMS announced the selection of
                                              durable medical equipment suppliers who had submitted
                                              competitive bids for the included items. New prices for these
                                              items went into effect in the bidding area on February 1, 2001.
                                              The new reimbursement amount for albuterol set by the
                                              competitive bidding process was $0.32 per mg, approximately 32
                                              percent below the usual Medicare price. CMS hopes to use the
                                              results from these demonstrations more generally in the
                                              Medicare program.
                                              Medicaid Reimbursement of Albuterol
                                              As with Medicare, Medicaid beneficiaries typically receive
                                              albuterol from pharmacies. Pharmacies are then reimbursed by
                                              the Medicaid program.

                                              Federal regulations require that each State Medicaid agency’s
                                              reimbursement for a drug not exceed the lower of its estimated
                                              acquisition cost plus a reasonable dispensing fee, or the
                                              provider’s usual and customary charge to the public for the
                                              drug. CMS allows States flexibility in defining estimated

        O E I - 03 - 03 - 0 0 5 1 0                UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   3
I   N      T      R      O        D   U   C   T    I    O       N


                                          acquisition cost. Like Medicare, most States base their
                                          calculation of estimated acquisition cost on a drug’s AWP
                                          discounted by a certain percentage. This discount ranged from 5
                                          percent to 15 percent in the year 2001. A few States use
                                          published wholesale acquisition costs (WACs) plus a percentage
                                          markup rather than AWPs when calculating estimated
                                          acquisition cost.
                                          For certain drugs, States also use the Federal Upper Limit and
                                          State Maximum Allowable Cost programs in determining
                                          reimbursement amounts. According to CMS, the purpose of
                                          Federal Upper Limits is to ensure that the Federal Government
                                          acts as a prudent purchaser by taking advantage of current
                                          market prices for multiple-source products. CMS has
                                          established Federal Upper Limit amounts for over 400 drugs. In
                                          addition, more than half of the States have implemented a
                                          Maximum Allowable Cost program in order to reduce
                                          reimbursement amounts for certain drugs. Individual States
                                          determine the types of drugs that are included in their
                                          Maximum Allowable Cost program, and the method by which
                                          the Maximum Allowable Cost for a drug is calculated.
                                          Acquisition Sources of Albuterol for Pharmacies
                                          Pharmacies can purchase drug products through several
                                          sources, including group purchasing organizations (GPOs),
                                          wholesalers/distributors, and directly from manufacturers.
                                          GPOs provide their members with lower cost products by
                                          negotiating prices for specific drugs from manufacturers. The
                                          member can then purchase drugs at the negotiated price either
                                          directly from the manufacturer or from a wholesaler/distributor
                                          who accepts GPO’s price. Wholesalers/distributors purchase
                                          large volumes of drugs from manufacturers and sell them
                                          directly to physicians, suppliers, and pharmacies.

                                          VA Payments for Albuterol
                                          Unlike Medicare and Medicaid, VA purchases drugs for its
                                          health care system directly from manufacturers or wholesalers.
                                          There are several options available to VA when purchasing
                                          drugs, with the most common being the Federal Supply
                                          Schedule. The Federal Supply Schedule provides agencies like
                                          VA with a simple process for purchasing commonly-used
                                          products in any quantity while still obtaining the discounts
                                          associated with volume buying. Using competitive procedures,


    O E I - 03 - 03 - 0 0 5 1 0               UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   4
I   N   T    R       O      D         U   C   T   I     O      N


                                              contracts are awarded to companies to provide supplies over a
                                              given period of time at the Federal Supply Schedule price.
                                              However, VA is sometimes able to negotiate prices lower than
                                              Federal Supply Schedule amounts through other avenues, such
                                              as blanket purchase agreements and VA national contracts.
                                              Related Work on Albuterol
                                              OIG has consistently found that Medicare’s usual
                                              reimbursement amount for albuterol (based on AWP) is
                                              excessive. For example, in our report Excessive Medicare
                                              Reimbursement for Albuterol (March 2002), we calculated that
                                              the Medicare reimbursement amount for albuterol in 2000 was
                                              more than 9 times higher than the VA purchase price, and
                                              nearly 6 times the actual acquisition cost to pharmacies.
                                              According to our findings, excessive reimbursement for albuterol
                                              alone was costing Medicare and its beneficiaries up to $264
                                              million per year.

                                              In another of our reports, Medicare Reimbursement for
                                              Albuterol (June 2000), we found that Medicare would have
                                              saved almost $120 million in 1999 by reimbursing for albuterol
                                              at the amount paid by Medicaid.
                                              In addition to the OIG, GAO has also found that Medicare
                                              reimbursement for albuterol is excessive. In its September 2001
                                              report, Medicare: Payments for Covered Outpatient Drugs
                                              Exceed Providers’ Costs (GAO-01-1118), GAO found that the
                                              average widely available price to pharmacies for albuterol was
                                              85 percent below the published AWP of the drug.


                                              METHODOLOGY
                                              We reviewed laws and regulations concerning Medicare drug
                                              reimbursement. We accessed CMS’s Part B Extract Summary
                                              System to determine Medicare’s total payments for the unit-dose
                                              solution form of albuterol in CY 2002. We obtained Medicare’s
                                              CY 2003 reimbursement amounts for albuterol from all 4
                                              DMERCs.
                                              To determine Medicaid’s 2003 reimbursement amount for
                                              albuterol, we obtained pricing information for the drug from the
                                              Medicaid Federal Upper Limit list.
                                              To estimate pharmacy acquisition costs for albuterol, we
                                              obtained spring 2003 pricing information for albuterol from a

        O E I - 03 - 03 - 0 0 5 1 0                   UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   5
I   N   T    R       O      D         U   C   T   I     O      N


                                              national wholesaler/distributor and from a GPO. As an
                                              additional estimate of pharmacy acquisition costs, we also
                                              obtained manufacturer-reported WACs from the January 2003
                                              edition of the Red Book. The Red Book defines WAC as
                                              manufacturer-quoted list prices to wholesale distributors. These
                                              prices are not reflective of bids, rebates, volume purchase
                                              agreements, or other types of exclusive contracts.
                                              To determine the VA’s 2003 payment amounts for albuterol, we
                                              accessed a file on their website that lists prices available to the
                                              agency through the Federal Supply Schedule.
                                              To calculate potential Medicare savings based on Medicaid, we
                                              compared Medicare’s reimbursement amount for 1 mg of
                                              albuterol to the Medicaid Federal Upper Limit amount. We
                                              determined the percentage difference in price by subtracting
                                              Medicaid’s price from Medicare’s price and then dividing the
                                              result by the Medicare price. This percentage indicates how
                                              much Medicare would save if the program could base
                                              reimbursement on the Medicaid Federal Upper Limit amount.
                                              We then multiplied the percentage difference by the total
                                              amount Medicare paid for albuterol in 2002 to calculate dollar
                                              savings.
                                              The exact savings estimates presented in this report are for
                                              2002. Because the 2004 reimbursement amount for albuterol
                                              was lowered to 80 percent of AWP from 95 percent of AWP, the
                                              savings that Medicare would achieve by paying the Medicaid
                                              Federal Upper Limit amount would now be lower. However, the
                                              difference in price between Medicare and Medicaid would still be
                                              large, and significant savings would still result if Medicare were
                                              able to reimburse albuterol at the Federal Upper Limit amount.




                                              This study was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President=s Council on
                                              Integrity and Efficiency.




        O E I - 03 - 03 - 0 0 5 1 0                   UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   6
         F I N D I N G S 




                          In 2003, Medicare reimbursed $0.47 per mg for albuterol, an
                          amount that was considerably higher than the reimbursement
                          amounts of other Government payers and the prices available to
                                                           the supplier community. If
Medicare continues to pay more for albuterol than
                                                           Medicare were able to base its
        other payers, costing the program and its
                                                           reimbursement amount for
           beneficiaries millions of dollars a year.       albuterol on prices available to
                          these sources, the program and its beneficiaries could have
                          saved millions of dollars in 2002. Chart 1 below compares the
                          Medicare reimbursement amount to prices available to
                          Medicaid, the supplier community, and VA.




                                                                               Chart 1: Comparison of Albuterol Prices

                                                  $0.50
                                                                                                                                                                  $0.47

                                                  $0.45

                                                  $0.40

                                                  $0.35

                                                  $0.30
                                         Amount




                                                  $0.25

                                                  $0.20
                                                                                                                                                       $0.17

                                                  $0.15

                                                  $0.10                                                                         $0.08
                                                                                    $0.06                 $0.06
                                                              $0.05
                                                  $0.05

                                                  $0.00
                                                            Median VA            Median              Median GPO            Median WAC              Medicaid      Medicare
                                                                                Wholesaler                                                       Federal Upper
                                                                                                                                                     Limit


                                       Source: VA website, OIG survey of pharmacy prices, 2003 Red Book , Medicaid Federal Upper Limit list, and
                                       DMERC pricing publications.

                                                          Medicare and its beneficiaries would have saved $263 million in 2002 if
                                                          the program were able to reimburse albuterol at the Medicaid Federal
                                                          Upper Limit amount.

                                                          CMS sets the Medicaid Federal Upper Limit amount for albuterol at
                                                          $0.17 per mg, compared to $0.47 per mg for Medicare. If Medicare
                                                          were able to reimburse for albuterol at the Medicaid Federal Upper
                                                          Limit amount, the program would have saved $263 million in 2002.
                                                          Approximately $53 million of the savings would have had a direct

         O E I - 03 - 03 - 0 0 5 1 0                         UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L              7
F   I   N    D       I    N       G   S


                                          impact on Medicare beneficiaries in the form of reduced coinsurance
                                          payments.
                                          The Medicare reimbursement amount for albuterol was eight times
                                          higher than the median price available to the supplier community.

                                          Data collected from a drug wholesaler and a GPO showed that
                                          pharmacies were able to purchase albuterol for substantially
                                          less than the Medicare reimbursement amount. In spring 2003,
                                          the unit-dose solution form of albuterol was available from these
                                          sources at prices ranging from a low of $0.05 per mg to a high of
                                          $0.10 per mg. The median price of albuterol at both the
                                          wholesaler/distributor and GPO was $0.06 per mg. Medicare’s
                                          reimbursement amount of $0.47 per mg was nearly eight times
                                          more for the same amount of the drug.
                                          Pharmacies were able to acquire albuterol for less than a
                                          Medicare beneficiary would pay in coinsurance alone ($0.09 per
                                          mg). For example, a beneficiary using a typical monthly supply
                                          of albuterol (250 mg) would pay $23.50 in Medicare coinsurance.
                                          Through the sources we identified, pharmacies, on average,
                                          would pay just $15.00 for the same supply. We did not collect
                                          data from pharmacies regarding any additional costs related to
                                          providing albuterol to Medicare beneficiaries.
                                          Furthermore, manufacturer-reported WACs published in the
                                          Red Book also showed that pharmacies were able to purchase
                                          albuterol for prices substantially below Medicare. In January
                                          2003, the median WAC reported in the Red Book was $0.08 per
                                          mg. The Red Book defines WAC as manufacturer-quoted list
                                          prices to wholesale distributors, not reflective of bids, rebates,
                                          volume purchase agreements, or other types of exclusive
                                          contracts.
                                          Since our last report, the price at which albuterol was available
                                          to the supplier community decreased, while the Medicare
                                          reimbursement amount remained the same. In 2001, we
                                          calculated that the median price of albuterol through
                                          wholesaler/distributors and GPOs was $0.08 per mg, 33 percent
                                          higher than the 2003 price of $0.06 per mg. In addition,
                                          manufacturer-reported WACs also decreased from a median of
                                          $0.11 per mg in 2001 to $0.08 in 2003.




        O E I - 03 - 03 - 0 0 5 1 0          UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   8
F    I    N       D      I        N   G   S


                                          If Medicare were able to use prices available to the supplier
                                          community as a basis for albuterol reimbursement, the program
                                          and its beneficiaries would save millions of dollars a year.
                                          The Medicare reimbursement amount for albuterol was over nine times
                                          higher than the median price available to VA.

                                          In 2003, the median Federal Supply Schedule price available to VA
                                          for albuterol was $0.05 per mg. In comparison, Medicare reimbursed
                                          nine times more ($0.47 per mg) for the same amount of the drug.
                                          However, it should be noted that, unlike Medicare, VA purchases
                                          drugs for its health care system directly from manufacturers or
                                          wholesalers, rather than reimbursing pharmacies for the drug.
                                          Both the VA Federal Supply Schedule price and the Medicare
                                          reimbursement amount for albuterol have remained constant
                                          since our previous report (Excessive Medicare Reimbursement
                                          for Albuterol) in 2002 (based on 2001 data). The 2003 VA price,
                                          however, was still over 50 percent lower than it was in 1998
                                          ($0.11 per mg), while the Medicare price had not changed during
                                          the same 5-year period.




    O E I - 03 - 03 - 0 0 5 1 0               UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   9
C O N C L U S I O N 





                              Despite numerous attempts by CMS to lower reimbursement
                              amounts for prescription drugs, Medicare still pays a high
                              premium for albuterol. This report is part of a series of reports
                              on albuterol which have consistently found that the published
                              AWPs, which, as prescribed by Federal law, form the basis of
                              Medicare drug reimbursement, bear little or no resemblance to
                              actual wholesale prices that are available to pharmacies and
                              large Government purchasers.
                              Because of Medicare’s reliance on published AWPs, the
                              program’s reimbursement remains constant, despite the fact
                              that other purchasers pay significantly less for albuterol than
                              they did several years ago. In addition, Medicare’s total
                              reimbursement for albuterol continues to increase substantially
                              each year. Consequently, the Medicare program loses
                              progressively more money every year.
                              We understand that, unlike most drugs covered by Medicare,
                              albuterol is usually provided by pharmacies rather than
                              administered by physicians. These pharmacies obviously need
                              to make a profit from the products they supply, yet the spread
                              between what Medicare reimburses for albuterol and the price
                              at which suppliers are able to purchase the drug is significant.
                              Furthermore, we recognize that the VA acts as a purchaser of
                              drugs, while Medicare reimburses pharmacies for the product.
                              However, the fact that one Government agency is able to
                              purchase a drug for one-ninth of Medicare’s reimbursement
                              amount is troubling.
                              Congress has recently passed the Medicare Prescription Drug,
                              Improvement, and Modernization Act of 2003 (Act). This Act
                              provides for numerous changes in Medicare’s reimbursement
                              methodology for drugs covered under Part B, including
                              albuterol. Based on this new Act, Medicare will reimburse
                              albuterol at 80 percent of AWP in 2004. We hope that the data
                              presented in this report is helpful to CMS in determining an
                              appropriate payment amount for the drug beyond 2004.




O E I - 03 - 03 - 0 0 5 1 0      UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   10
A C K N O W L E D G M E N T S 





                              This report was prepared under the direction of Robert A Vito,
                              Regional Inspector General for Evaluation and Inspections in
                              the Philadelphia Regional Office, and Linda M. Ragone, Deputy
                              Regional Inspector General. Other principal Office of
                              Evaluation and Inspections staff who contributed include:
                              David Tawes, Team Leader

                              Cynthia Hansford, Program Assistant

                              Linda Frisch, Program Specialist




O E I - 03 - 03 - 0 0 5 1 0      UP D A T E : E X C E S S I V E M E D I C A R E R E I M B U R S E M E N T   FOR   AL B U T E R O L   11
